ES, IG-99-021, Obligations Management -- Recording Obligations and Adjustments
OBLIGATIONS MANAGEMENT -- RECORDING
OBLIGATIONS AND ADJUSTMENTS
IG-99-021
Executive Summary
Background
NASA is responsible for ensuring that appropriated funds are used within
specified time periods and only for the purposes and amounts authorized by
Congress.  The NASA accounting procedures are designed to record and control
documents and transactions to provide NASA officials with reliable,
accurate, timely, and complete financial data.  Effective obligation
management is one of the fundamental, internal controls designed to produce
the data with which to control funds.  An integral part of managing
obligations is ensuring that obligations are recorded accurately.
Unrecorded or inaccurate obligation record keeping can distort the
accuracy of available appropriation balances.  Failure to record obligations
and adjustments in a timely manner increases the risk of overobligation and
the risk that program officials will not have accurate information to use
in decisionmaking.
Objective
The audit objective was to determine whether obligations and adjustments to
obligations were promptly and accurately recorded.  We performed audit
fieldwork at four NASA Centers: Glenn Research Center (Glenn), Goddard Space
Flight Center (Goddard), Johnson Space Center (Johnson), and Marshall Space
Flight Center (Marshall) (see Appendix A).
Results of Audit
Results of Audit.  The four Centers we reviewed accurately recorded their
obligations and adjustments.  However, the Centers sometimes took more than
15 working days to record obligations, and in some cases, had limited or no
documentation to support the posted obligation.  Also, the Centers did not
always promptly record adjustments to obligations.  In cases in which costs
and disbursements were reported in excess of obligations, adjustments
totaling $42 million remained uncorrected for 6 months or longer.  As a
result, NASA financial records were not completely current for purposes of
preventing overobligation and ensuring fund availability for expenditures.
Revised Recommendations
In response to discussions with management and its comments on a draft of this
report, we revised the recommendations to more clearly state our audit results
and to reflect the extent of the problems identified.  Management initially
nonconcurred with the draft report recommendations, but provided an acceptable
alternative action.
Recommendations
We recommended that the NASA Chief Financial Officer implement and refine
processes to ensure obligations and adjustments to obligations are promptly
recorded.
Management's Response
Concur.  Management recognized the importance of the timely recording of
obligations and correction of errors and, therefore, plans to include metrics
to address those factors in its Quality Assurance Evaluation process.
Evaluation of Management's Response
Management's planned actions are responsive to the recommendations.